No. 20-486
IN THE

Supreme Court of the United States
NATHANIEL OGLE,
v.

Petitioner,

OHIO CIVIL SERVICE EMPLOYEES ASSOCIATION, AFSCME LOCAL 11, AFL-CIO,
Respondent.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the
text and 10 point for the footnotes, and this brief contains 7,295 words, excluding the
parts that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 14, 2020.
/s/ Richard F. Griffin, Jr.
RICHARD F. GRIFFIN, JR.
(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
rgriffin@bredhoff.com
Counsel for Respondent

